                   Report on Follow-Up Audit of Facilities
                           Use of Leased Space

                                 August 2004

                     Reference Number: 2004-1C-161




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            August 26, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Report on Follow-Up Audit of Facilities Use of Leased Space
                              (Audit #20041C0243)


       The Defense Contract Audit Agency (DCAA) performed a follow-up audit of the
       contractor’s management and use of facilities within Virginia, Maryland, New Jersey,
       and the District of Columbia. The DCAA performed the follow-up audit to evaluate the
       actions the contractor has taken in response to initial audit recommendations contained
       in the previous audit reports. The purpose of the audit was to determine whether the
       contractor’s corrective actions are adequate and in agreement with the
       recommendations and whether further DCAA or Administrative Contracting Officer
       involvement is necessary.
       The DCAA opined that the contractor’s Federal Sector has been proactive and
       responsive in its actions pursuant to the recommendations set forth in the initial audit
       reports. In essence, the contractor has managed its facilities function more
       economically and efficiently since the original audits and has either eliminated or
       consolidated leased space.
       The DCAA follow-up audit was limited to an examination of the contractor’s current use
       of its facilities area in relation to the initial audit recommendations. As a result, the
       DCAA toured only those specific facilities for which cost avoidance was recommended
       in the initial audit reports and evaluated only the contractor’s policies, procedures,
       practices, and related internal controls for facilities use applicable to those facilities.
       Accordingly, the DCAA expresses no opinion on the contractor’s operating systems
       taken as a whole.
                                           2

The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                     The TIGTA seal was removed due to its size.
